No. __-____

In the Supreme Court of the United States
YANN IANNUCCI,
v.

Petitioner,

MACOMB COUNTY FRIEND OF THE COURT,
Respondent.
CERTIFICATE OF SERVICE
OF

PETITION FOR WRIT OF CERTIORARI

CARSON J. TUCKER, JD, MSEL, Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
Phone: +17348879261
Fax: +17348879255
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further Orders
of the Court dated April 15, 2020 undersigned sent on
the below date by first class mail and/or by email if
electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the
Supreme Court of Michigan in the above-captioned
case to counsel as follows:
ATTORNEYS FOR RESPONDENT
LAURA KEETH, ESQ.
Macomb County Friend of the Court
10 N. Main St.
Mount Clemens, MI 48043-5668

Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: April 23, 2021

